21-5310
SUPREME COURT OF THE UNITED STATES

MARCUS DANIEL SILVER
Plaintiff, Appellant and Petitioner (pro se)
V.

BERTRAM SIEGEL, CAROLE SIEGEL, DAVID SIEGEL, TWO SIGMA
INVESTMENTS, LP
Defendants, Appellee’s and Respg

ON PETITION FOR WRIT OF CERTIORARI
To: Court of Appeal, Second district, Division Three
300 S. Spring Street Los Angeles, CA 90013
(Case No. B301917 Silver v. Siegel et al.)

FILED
JUN 2 9 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

Marcus Silver (pro se)
8613 Franklin Avenue
Los Angeles, CA 90069
Tel (310) 945 6105

RECEIVED
AUG - 3 2021
OFFICE OF THF CLr.nK
SUPREME
U-St.

QUESTIONS PRESENTED FOR REVIEW

I. NOTICE OF REMOVAL:
According to the plain language meaning of 28 U.S. Code §1446, the notice of
removal of a civil action or proceeding shall be filed within 30 days after the
receipt by the defendant, through service or otherwise, of a copy of the initial
pleading setting forth the claim for relief upon which such action or
proceeding is based, or within 30 days after the service of summons upon the
defendant if such initial pleading has then been filed in court and is not
required to be served on the defendant, whichever period is shorter.

The initial complaint in this case was admittedly received via US Priority
Mail on 05/24/2019, under U.S. Code §1446 a notice of removal had to be filed
within 30 days or by 06/23/2019, however the notice of removal was not filed
until the date of respondent’s first appearance on 07/08/2019 to file the actual
notice of removal.

The question is when does the deadline to file for Notice of Removal
begin, is it upon receipt of the complaint as per the plain language
meaning of U.S. Code §1446 or must the summons also be received?

i

II. WHAT CONSTITUTES A GENERAL APPEARANCE?
Respondents appeared before two previous judges and filed a notice of
removal, two peremptory challenges, an objection and a declaration prior to
filing the motion to quash. A demurrer and a motion to strike were filed
together with the motion to quash.

Petitioner argued in his objection and at the hearing on the motion to quash
that general appearances had. occurred. The Superior Court only addressed
the notice of removal and found that it was not a general appearance. The
Court of Appeals addressed the notice of removal and peremptory challenges.
Neither of the courts addressed the status of the declaration and objection or
the motion to strike and demurrer but the appearances, although thus far
undetermined by the courts apparently meet the requirements of a general
appearance.

The question is: What constitutes a General Appearance and did one
occur before or concurrently with the motion to quash being filed?

III. SHOULD THE JUDGE HAVE RECUSED HIMSELF?
The Constitution requires a hearing that is fair and impartial.
At the hearing on the motion to quash Judge Green overtly expressed his age
related bias by stating “Can I call an 80- Year old elderly when I’m 72. Well.

ii

Regardless, they are elderly and I see no reason for dragging them across the
country to be here.” The Judge also told petitioner to shush thereby
preventing petitioner from making a full and fair argument.

The question is: Was the level of age related bias and impartiality
expressed by the judge sufficient for him to have recused himself
and should the Court of Appeals have addressed this issue?

IV. PROCEDURAL DUE PROCESS
On 05/29/2020 Appellant’s brief was filed and to support it’s arguments
contained citations to relevant laws, rules and cases but the table of contents
did not fist citations to the clerk’s record as per court requirements. The
docket sheet noted that the brief did not comply to citations to the clerk’s
record so permission to file was needed. Permission was granted on 06/18/20
but then the court later used the defect as an excuse not to fully address
petitioner’s arguments.

The question is: Is procedural due process adhered to if a nonconforming brief is accepted despite it’s recognized deficiency and
then the same deficiency is later used as an excuse to not address the
arguments?

iii

V. ONLY ONE TIMELY, PEREMPTORY CHATJFNOF, TS ATJOWFD
The case was assigned to the Honorable Judge Fujie on May 24, 2019.

Under the rules of 170.6 challenges, the challenge must be made within 15
days after appellee’s first appearance which occurred on July 8, 2019 with the
filing of the notice of removal. This resulted in a July 23, 2019 deadline to file
a 170.6 challenge.

On July 16, 2019 respondents filed their first peremptory challenge, which
was denied on July 19. 2019 because the court claimed it had not received the
case back from federal court and lacked jurisdiction.

On July 24, 2019 a case management conference was ordered by the Superior
Court so they had jurisdiction at this point.

On July 26, 2019, 3 days past the deadline, the second peremptory challenge
was filed and granted.

The question is: Was the second peremptory challenge timely and in
compliance with rules governing 170.6 challenges?

iv

VI. DUE PROCESS:
'According toThe relevant rules and'laws governing 170.6 challenges, only
one, not two peremptory challenges are allowed and must be timely. In this
case two peremptory challenges were made and the second arguably untimely
challenge was granted resulting in the appointment of the Honorable Judge
Green.

Judge Green overtly expressed his age related bias, failed to address
arguments and prevented petitioner from fully presenting his arguments in
Superior Court by telling him to shush.

The Court of Appeal erred in allowing the appellant brief to be filed without
the citations to the clerk’s record and then using the omission as an excuse to
avoid fully addressing arguments like whether the filing of an objection or
declaration, demurrer or motion constitute a general appearance, the Judge’s
impartiality and whether petitioner received due process.

The question is: As per the Constitution did Petitioner receive due
process?

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Applicant Marcus Silver has no
corporate interests.

PRIOR PROCEEDINGS
Superior Court of California, County of Los Angeles Case No.
19STCV17949 - Filed 05/22/2019

07/08/2019 — Notice of Removal to Federal Court — Filed.
07/09/2019 — Notice of Removal to Federal Court — Denied.
07/16/2019 — Peremptory Challenge filed by Defendant - Denied
07/26/2019 — 2nd Peremptory Challenge filed by Defendant(s).
07/30/2019 — 2nd Peremptory Challenge is granted.
08/08/2019 — Motion to Quash Service of Summons filed.
09/16/2019 — Hearing on Motion to Quash - Granted.
10/16/2019 — Appeal filed.
04/27/2021 — Appeal — Remittitur - Affirmed (B301917)

Court of Appeals 2nd Appellate District - Case No. B301917
11/01/2019 — Notice of appeal Received
01/05/2021 — Opinion filed — Order Affirmed. (Unpublished)
02/01/2021 — Rehearing Petition Filed.

vi

02/03/2021 — Petition for Rehearing Denied.
0271872021 - Record transmitted to the CA Supreme Court

California Supreme Court
02/18/2021 — Petition for Review Filed
04/21/2021 — Petition for Review Denied.

TABLE OF CONTENTS
Page

QUESTION PRESENTED

I

1. When does the deadline to file for Notice of Removal begin?

I

2. What constitutes a “General Appearance?..............................

II

3. Should the judge have recused himself?.................................

III

4. Procedural Due Process

III

5. Was the second peremptory challenge timely and in compliance?

IV

6. Due Process

.V

CORPORATE DISCLOSURE STATEMENT

VI

PRIOR PROCEEDINGS

VI

vii

CITATIONS

XI

TABLE OF AUTHORITIES

IX

STATEMENT OF JURISDICTION.

•

STATUTORY PROVISIONS

•

CONSTITUTIONAL PROVISIONS

XII

XII

XIII

STATEMENT OF THE CASE

1

•

DEADLINE FOR NOTICE OF REMOVAL

•

DEFINITION OF A GENERAL APPEARANCE

„9

•

DEFINITION OF A SPECIAL APPEARANCE

13

•

GENERAL APPEARANCES WERE MADE

15

•

IMPARTIALITY.

16

•

PROCEDURAL DUE PROCESS

16

•

ONLY ONE PEREMPTORY CHALLENGE IS ALLOWED......18

•

DUE PROCESS

CONCLUSSION.

2

20

22

viii

APPENDICES

24

CERTIFICATE OF WORD COMPLIANCE

25

TABLE OF AUTHORITIES
Page
CASES
Chaplin v. Superior Court (1927) 81 Cal. App. 367, 375 [253 P. 954]

12

Chitwood v. County of Los Angeles (1971)
14 Cal. App. 3d 522. 527 [92 Cal. Rptr.441

11

Cutrone v. Mortgage Electronic Registration
Systems, Inc., (No. 14-455-cv. Decided: April 17,2014)

7,8

Davenport v. Superior Court (1920) 183 Cal. 506, 511 [191 P. 911]

11

Goodwine v. Superior Court (1965)
63 Cal. 2d 481. 484-485 (47 Cal. Rptr. 201, 407 P.2d)

11

Greene v. Committee of Bar Examiners (1971)
4 Cal. 3d 189. 200 [93 Cal. Rptr. 24, 480 P.2d 976]

11, 12, 15

ix

Judson v. Superior Court (1942)
21 Cal. 2d 11. 13 [129 P.2d 361]

Karlsson v. Rabinowitz 318 F.2d 666,

12, 13,15

5

McKinney v. Bd. of Tr. of Mayland Cmty. Coll.
955 F.2d 924 (4th Cir. 1992)

7

Milstein v. Ogden (1948) 84 Cal. App. 2d 229,
232 [190 P.2d 312].)

11

Murphy Bros. v. Michetti Pipe Stringing, Inc.
(1999) 526 U.S. 344, 347-348.)

RCA Corp. v. Superior Court, supra, 47 Cal. App. 3d 1007, 1010

...3, 4, 5, 7

11

Reece v. Wal-Mart Stores, Inc., 98 F.3d 839, 841 (CAS 1996)

6

Roe v. O'Donohue, 38 F. 3d 298, 303 (CA7 1994)

6

x

Shamrock Oil & Gas Corp. v. Sheets, 313 U. S. 100, 108-109
6'

(1941)

Wilson v. Barry (1951) 102 Cal. Ann. 2d 778, 781
12

[228 P.2d 331]
STATUTES

11

70 Cal. App. 3d 222

11, 12, 13

Section §396b of the Code of Civil Procedure
Section §403.40 of the Code of Civil Procedure .

12, 13

Section 415.20(b) of the Code of Civil Procedure

5

Section §430.90 of the Code of Civil Procedure

9
10, 11, 13

Section §1014 of the Code of Civil Procedure

3, 6, 7, 8, 12, 22

28 U.S. Code § 1446,

UNITED STATES CONSTITUTION
Due Process
U.S. Constitution,

5, 16, 18, 20, 21, 22, 23
5, 16, 20, 21

CITATIONS OF OPINIONS AND ORDERS
09/16/2019 - Minute Order granting motion to quash,

(Appendix 1)

01/15/2021 - Opinion Filed

(Appendix 2)

02/03/2021 - Order Denying Petition for Rehearing ..

(Appendix 3)

xi

04/09/2021 — Supreme Court Order,

(Appendix 4)

STATEMENT OF JURISDICTION
Under 28 U.S.C. §1291 the 2nd Circuit Court of Appeals had jurisdiction of
the case that was docketed in California Superior Court as case No.
19STCV17949 and case No. B301917 in the Appellate Court. The Appellate
Court upheld the Superior Court verdict and a petition for review was filed
with the California Supreme Court but was denied on 04/21/2021. The United
States Supreme Court has jurisdiction.

STATUTORY PROVISIONS
The statutory provision believed to confer on this Court jurisdiction to review
on a writ of certiorari the judgment or order in question is 28 U.S. Code
§1251 - Original jurisdiction U.S. Code (a) The Supreme Court shall have
original and exclusive jurisdiction of all controversies between two or more
States.
(b) The Supreme Court shall have original but not exclusive jurisdiction
of:(l) All actions or proceedings to which ambassadors, other public
ministers, consuls, or vice consuls of foreign states are parties;
(2) All controversies between the United States and a State;
(3) All actions or proceedings by a State against the citizens of another State
or against aliens.

xii

CQNSTITUTIQNAIrPRQYISIQNS
Article III, Section II of the Constitution establishes the jurisdiction of
the Supreme Court. The judicial power extends to all cases, in law and
equity, arising under the Constitution and applies to amongst other things
controversies between two or more states; between a state and citizens of
another state and between citizens of different states.

Due Process - 5th and 14th Amendment.
Ensuring fair, impartial procedures according to relevant rules, statutes and
laws.

xiii

STATEMENT OF THE CASE
May 22, 2019~The original complaint was filed in Los Angeles*Superior
Court, Case #19STCV17949 Presided over by Honorable Judge Terry Green.

May 24, 2019 - Case Management Conference.

July 8, 2019 - Notice of Removal was filed.

July 15, 2019 - Request for Entry of Default was filed.

July 16, 2019 - The first Peremptory Challenge, a declaration and an
opposition were all made.

July 26, 2019 - The second Peremptory Challenge was made.

July 30, 2019 - The second Peremptory Challenge was granted and the case
reassigned.

August 8, 2019 - Motion to Quash is filed with demurrer/motion to strike.

September 16, 2019 - The motion to quash was granted. (Appendix 1)

1

October 16, 2019 - Notice of appeal was filed.

May 29, 2020 - Appellant’s brief was filed but the docket sheet noted that the
brief did not comply to citations to the clerk’s record so permission to file was
needed. (Appendix 8)

June 18, 2020 - The Court granted permission to file the brief. (Appendix 8)

January 15, 2021 - The order of the superior Court was affirmed. (Appendix
2 - Remittitur))

February 1, 2021 - Petition for rehearing in the Court of Appeals was filed
but denied on February 3, 2021. (Appendix 3)

February 18, 2021 - Petition for review was filed with the California
Supreme Court.

April 21, 2021 - The petition for review was denied. (Appendix 4)

1. DEADLINE FOR NOTICE OF REMOVAL
(First argued on page 1 of the combined opposition, Appendix 10 and then in
Appellants Brief page 11, Appendix 11)

2

Respondents admitedreceiving the'initialcomplainton05/24/2019.-

Under 28 U.S. Code § 1446 - Procedure for removal of civil actions
(b) Requirements; Generally:
(1) The notice of removal of a civil action or proceeding shall be filed within
30 days after the receipt by the defendant, through service or otherwise, of a
copy of the initial pleading setting forth the claim for relief upon which such
action or proceeding is based, or within 30 days after the service of summons
upon the defendant if such initial pleading has then been filed in court and is
not required to be served on the defendant, whichever period is shorter.

According to the plain language meaning of 28 U.S. Code §1446, because the
complaint was received on 05/24/2019, a notice of removal had to be filed
within 30 days or by 06/23/2019, however the notice of removal was not filed
until the date of respondent’s first appearance on 07/08/2019 to make the
filing. Petitioner first argued that the notice of removal was late on page 1 of
the combined opposition, Appendix 10 and on page 11 of the appeal brief,
Appendix 11.

In it’s ruling the Court of Appeals noted that in Murphy Bros. v. Michetti
Pipe Stringing, Inc. (1999) 526 U.S. 344, 347-348.) That defendants’ time to

3

remove the case to federal court was not triggered until they were formally
served’witFhotlfthe complamt~and'summonsr(page-7r2nd paragraph-of the
remittitur — Appendix 2)

The Court of Appeals ruled (remittitur — page 7, 3rd paragraph - Appendix 2)
in accordance with that service of summons was arguably not until the
07/08/2019 filing for notice of removal which was remanded on 07/09/2019
and resulted in an 08/08/2019 filing deadline for other responses.

Petitioner believes that substituted service of summons occurred on
06/03/2019 when the summons was delivered via US Priority Mail resulting
in a 07/03/2019 or sooner deadline to file a notice of removal if service of
summons is required or 06/23/2019 if only service of complaint is required.
Either way 07/08/2019 was at least a day too late.

Although cited, the Murphy case is not the same as the case at hand because
it involved service via fax as opposed to traditional US Priority Mail and the
court in Murphy expressed concern about serving foreign parties. Had the
court adjudicated the case at hand and it’s radically different facts, the court
would likely have come to a much different conclusion. Furthermore, the
petitioner's complaint was sent via US Priority Mail on 05/22/2019 and
respondents admit receiving it on 05/24/2019. The summons was mailed via

4

US Priority Mail on 05/30/2019 and delivered on 06/03/2019. According to
Substituted'ServiciTofProeesson'IndividualsrCodeofCivil-Procedure Section
415.20(b)
‘In service ofprocess questions, courts have traditionally measured due
process by the well-settled rule that a fundamental requirement of due
process in any proceeding which is to be accorded finality is notice
reasonably calculated, under all the circumstances, to apprise
interested parties of the pendency of the action.... Such notice must be
of such nature as reasonably to convey the required information ... and
it must afford a reasonable time for those interested to make their
appearance.... But if with due regard to practicalities and peculiarities
of the case these conditions are reasonably met, the constitutional
requirements are satisfied. Generally, courts have considered the due
process requirements to have been reasonably met if the plaintiff at
least substantially complies with the statutory provisions. In such cases,
service will be upheld whether or not the defendant has received actual
notice”.
Also see: Karlsson v. Rabinowitz 318 F.2d 666 rWlhere actual notice of the
commencement of the action and the duty to defend has been received by
the one served, the provisions ... should be liberally construed to
effectuate service and uphold the jurisdiction of the court, thus insuring
the opportunity for a trial on the merits.
The issue regarding filing deadlines for notice of removal has been ongoing
and courts in multiple jurisdictions have ruled both ways since Murphy and
even in Murphy there was dissenting opinion:

“CHIEF JUSTICE REHNQUIST, with whom JUSTICE SCALIA and
JUSTICE THOMAS join, dissenting. -

5

“Respondent faxed petitioner a copy of the file-stamped complaint in its
commenced state-court action, and 1 believe that the receipt of this
'facsimileXriggeredthe'30-day removal period-under the plain-languageof 28 U. S. C. §1446(b). The Court does little to explain why the plain
language of the statute should not control, opting instead to
superimpose a judicially created service ofprocess requirement onto
§1446(b). In so doing, it departs from this Court's practice of strictly
construing removal and similar jurisdictional statutes. See Shamrock
Oil & Gas Corp. v. Sheets, 313 U. S. 100, 108-109 (1941). Because I
believe the Eleventh Circuit's analysis of the issue presented in this case
was cogent and correct, see 125 F.3d 1396, 1397-1398 (1997), I would
affirm the dismissal of petitioner's removal petition for the reasons
stated by that court.”
Also see: Reece v. Wal-Mart Stores, Inc., 98 F.3d 839, 841 (CA5
1996) (removal period begins with receipt of a copy of the initial pleading
through any means, not just service of process) “the potential for abuse does
not justify abandonment of the statute’s plain language in an unexceptional
case” ; Roe v. O'Donohue, 38 F. 3d 298, 303 (CA7 1994) ("Once the defendant
possesses a copy of the complaint, it must decide promptly in which court it
wants to proceed").

The legislative history of 28 USC Section 1446(b) does not resolve this issue,
nor has the US Supreme Court squarely addressed it. The US courts of
appeals are split, with the Sixth and Eighth Circuits employing the laterserved defendant rule and the Fifth Circuit following the first-served
defendant rule. The Fourth Circuit has adopted an intermediate approach,
which uses aspects of both rules. The federal district courts in the remaining
circuits (in both product liability and other cases) are similarly divided and

6

have issued conflicting decisions even within the same circuit, such as the
First Circuit and even the Ninth-Circuit.

Decisions issued after the US Supreme Court's 1999 ruling in Murphy
Bros by courts in the Fourth and Fifth Circuits indicate that the law on this
issue has not changed in these circuits. Following Murphy Bros, the Fourth
Circuit has not revisited its decision in McKinney - milstney v. Bd. of Tr. of
Mayland Cmty. Coll., 955 F.2d 924 (4th Cir. 1992) and decisions by the
district courts within the Fourth Circuit have continued to follow
the McKinney approach, which remains controlling Fourth Circuit precedent.
Similarly, the Fifth Circuit has not changed its position on this issue in light
of Murphy Bros, and district court cases within the Fifth Circuit issued
after Murphy Bros have continued to follow the strict first-served defendant,
unaffected by Murphy Bros.

The United States Court of Appeals for the Second Circuit explained
in Cutrone v. Mortgage Electronic Registration Systems, Inc., (No. 14—455—
cv. Decided: April 17, 2014) the provisions of Section 1446(b) do not provide
all of the answers. Notably, the Cutrone court held that neither of Section
1446(b)’s 30-day removal periods is triggered until a plaintiff, either in an
initial pleading or other paper, affirmatively “provides facts explicitly
establishing removability or alleges sufficient information for the

7

defendant to ascertain removability.” (this occurred with the 05/24/2019
receipt'of the'filed'complamt'bydefendants):

In Cutrone the US Court of Appeals for the Second Circuit held that the 30day removal periods under 28 USC § 1446(b)(1) and § 1446(b)(3) “ore not
triggered until the plaintiff serves the defendant with a paper specifically
identifying the amount of monetary damages sought or setting out facts to
determine the amount in controversy ” In the case at Bar, the initial
complaint that was filed on 5/22/2019 and received by respondent on
5/24/2019 complied with all the requirements to trigger the 30 day removal
period as addressed in Cutrone.

Petitioner also argued that if service of summons was necessary and had not
already happened then it was certainly satisfied by respondents 7/8/2019
Notice of Removal and their appearance. This triggered a 30 day deadline or
no later than 08/07/2019 to file a motion to quash or other response but
respondents did not file their motion to quash until 08/08/2019 which is
arguably at the very least one day past the deadline. Respondent argued that
the deadline to respond did not start until the Notice of Removal was
remanded on 7/9/2019. Petitioner questions whether the arguably 15 day late
Notice of Removal should then upon its deserved rejection afford the
respondents an additional 30 days to file a response.

8

Numerous Circuit Courts and Court of Appeals including the ninth circuit
have arrived at confhctingHecisiohs'amongst themselves and-even-in conflict
with the United States Supreme Court. The question is important and
reoccurring and this petition provides an ideal vehicle through which to
clarify and resolve it.

11. WHAT CONSTITUTES A GENERAL APPEARANCE?
First argued in the combined objection to the motion to quash (page 7,
Appendix 10) at the hearing - Page 3, line 19 ofReporter’s transcript
(Appendix 9) then on page 18 paragraph 3 of the appeal. (Appendix 11)

The Court of Appeals reasoned on third paragraph, page 8 of their remittitur
that “First, filing a notice of removal cannot constitute a general appearance
because CCP§430.90 expressly provides time for a defendant to bring a
motion to quash service of summons.”

Plaintiff argued at the 9/16/2019 Motion to Quash that defendant’s had
appeared before two other Judges and had made General Appearances
thereby conceding to Jurisdiction and rendering the Motion to Quash moot
See page 3, line 13 of Reporter’s Transcript — Appendix 9. Plaintiff was
prevented from fully presenting his arguments because he was told to shush
by the Judge (page 2, line 11 Reporter’s Transcript — Appendix 9) who then

9

granted the Motion. Plaintiff questions what exactly constitutes a General
Appearance because respondenffiled a notice'of removalrtwo peremptorychallenges, an opposition to default judgment, and a declaration prior to
filing the motion to quash and included a motion to strike and a demurrer
with the motion to quash. If any constitutes a general appearance it should
have rendered the motion to quash moot because jurisdiction would already
have been conceded to.

A general appearance is made when a party first comes into court and
appears in the case. The party may come for any reason that recognizes the
authority of the court such as filing or answering a complaint. Such
participation operates as consent to the court’s exercise of jurisdiction in the
proceeding and waives all objections based on lack of personal jurisdiction,
defective process or service of process. Fifing responsive documents, or
making an appearance in court constitutes a general appearance. A general
appearance by a party is equivalent to personal service of summons on such
party. Opposing a motion on its merits is considered a general appearance.
[Civ. No. 40270. Court of Appeals of California, First Appellate District,
Division One. May 31,1977.] Section §1014 of the Code of Civil Procedure
purports to define what constitutes an appearance as follows:
"A defendant appears in an action when he answers, demurs, files a
notice of motion to strike, files a notice of motion to transfer pursuant to

10

Section §396b, gives the plaintiff written notice of his appeatance, or
when~an attorney’gives noticeofappearance for the defendant.—Code
Civ. Proc. §1014;
[3] "'Whether an appearance is general or special is determined by the
character of the relief sought and not by the intention of the party that it
shall or shall not operate as a general or special appearance. The [70 Cal.
App. 3d 222] statement of a defendant or party that he is making a special
appearance is not necessarily conclusive."' (Judson v. Superior Court
(1942) 21 Cal. 2d 11, 13 [129 P.2d 361] [overruled on other grounds Goodwine
v. Superior Court (1965) 63 Cal. 2d 481. 484-485 (47 Cal. Rptr. 201, 407 P.2d
1)]. See also Milstein v. Ogden (1948) 84 Cal. Ann. 2d 229. 232 [190 P.2d
312].)

It is established that a defendant may appear in ways other than those
specifically designed in section §1014. "... 'The test is:

“Did the party appear and object only to the consideration of the case or
any procedure in it because the court had not acquired jurisdiction of
the person of the defendant or party'? If so, then the appearance is
special. If, however, he appears and asks for any relief which could be
given only to a party in a pending case, or which itself would be a
regular proceeding in the case, it is a general appearance regardless of
how adroitly, carefully or directly the appearance may be denominated
or characterized as special.” [Citation.]'" (Judson v. Superior Court,
supra, 21 Cal.2d at p. 13. See Greene v. Committee of Bar Examiners
(1971) 4 Cal. 3d 189, 200 [93 Cal. Rptr. 24, 480 P.2d 976]; Davenport v.
Superior Court (1920) 183 Cal. 506, 511 [191 P. 911]; RCA Corp. v.
Superior Court, supra, 47 Cal. Ann. 3d 1007.1010; Chitwood v. County

11

of Los Angeles (1971) 14 Cal. Ann. 3d 522. 527 [92 Cal. Rptr. 441];
Wilson v. Barry (1951) 102 Cal. Ann. 2d 778. 781 [228 P.2d 331]; and
CHaplinv7SuperioFCourr(1927)'8rCalrApp7367r375'[253'Pr954]r)
A party appears when he files a deposition and asks for relief even though he
was never personally served (Greene v. Committee of Bar Examiners,
supra, 4 Cal. 3d 189. 200);

U.S. Code §1446. General Appearance: A defendant appears in an action
when the defendant answers, demurs, files a notice of motion to strike, files a
notice of motion to transfer pursuant to Section §396b, moves for
reclassification pursuant to Section §403.40 gives the plaintiff written notice
of appearance, or when an attorney gives notice of appearance for the
defendant.

The filing of a motion which is predicated upon the court having personal
jurisdiction constitutes a general appearance. (Judson v. Superior Court, 21
Cal. 2d 11...) Likewise the filing of an affidavit, other than for the purpose of
presenting matters bearing on the court's jurisdiction, constitutes a general
appearance.

Also See Code Civ. Proc. section 396(b) [a general appearance is defined as
where a defendant takes part in the particular action which in some manner

12

recognizes the authority of the court to proceed (other than a challenge to the
jurisdiction ofthe court)]7

WHAT CONSTITUTES A SPECIAL APPEARANCE?
A special appearance is the only way to preserve objections to personal
jurisdiction. For example, the party must make an appearance for the sole
purpose of objecting to the court's jurisdiction. This has to be clearly stated.
The record must reflect such a special claim. CA Civ Pro Code $1014
(2017) (unlike in this case)

A defendant appears in an action when the defendant answers, demurs, files
a notice of motion to strike, files a notice of motion to transfer pursuant to
Section 396b, moves for reclassification pursuant to Section 403.40, gives the
plaintiff written notice of appearance, or when an attorney gives notice of
appearance for the defendant. The form for making and the procedure for
preserving a special appearance in California are technical matters. The
statutory law on the subject is sparse and has just been referred to. Except
for those specifically enumerated matters, the form in which the special
appearance must be made, the matters which may be raised, and the relief
which may be requested without waiving the special appearance and
converting it into a general appearance are the product of judicial decisions.
The tenor of those decisions has consistently been that the special

13

appearance was not looked upon with favor, and in order to make and
preserve such an appearancerthe'defendant'had to proceed with precision
and caution. If there was any deviation from the rules, there was a waiver of
the jurisdictional issue and a general submission to the court's power. The
fundamental rule is that the substance of the motion, the character of the
relief sought and the grounds urged in support thereof, and not the label
affixed to the proceeding, control. Denominating the appearance as "special"
is of no consequence whatsoever. That rule was thus stated in Judson v.
Superior Court, “Did the party appear and object only to consideration of the
case or any procedure in it because the court had not acquired jurisdiction
over the person of the defendant or party? If so, then the appearance is
special. If, however, he appears and asks for any relief which could be given
only to a party in the pending case, or which itself would be a regular
proceeding in the case, it is a general appearance regardless of how adroitly,
careful or directly the appearance may be denominated or characterized as
special. In Judson the defendant had moved to quash service of process and
had included in his moving papers a motion to dismiss upon the grounds that
the court lacked subject-matter jurisdiction. In accord with the stated
rule, the inclusion of the second motion vitiated the respondents
purported special appearance.

14

GENERAL APPEARANCES WERE MADE PRIOR TO THE MOTION TO
QUASH
Aside from the 7/8/2019 Removal, Respondent filed a 7/16/2019 Opposition
and a Declaration as well as a belated Peremptory Challenge. All these
Appearances were made prior to the 08/08/2019 Motion to Quash. The Motion
to Quash was filed along with a Demurrer and a Motion to Strike and their
inclusion constituted a general appearance. A party appears when he files a
deposition and asks for relief even though he was never personally served
(Greene v. Committee of Bar Examiners, supra, 4 Cal. 3d 189. 200
Even if the Notice of Removal and Peremptory Challenges are considered to
be Special Appearances, the 7/16/2019 Opposition and Declaration
constituted General appearances resulting in the fact that the Motion to
Quash should have been filed prior to 7/16/2019 to have merit but instead it
was not filed until 8/8/2019 which was too late as Jurisdiction had already
been conceded to.

Neither the Superior Court nor the Court of Appeals addressed whether the
Objection and Declaration constituted General Appearances. There is a
conflict amongst circuit courts and courts of appeals in various jurisdictions.
The question is important and reoccurring and this petition provides an ideal
vehicle through which to clarify and resolve it.

15

III. SHOULD TttTC COURT OF APPEALS HAVE ADDRESSED
IMPARTIALITY?^
At the hearing on the Motion to Quash the Judge overtly expressed his age
related bias when he stated “Can I call an 80-Year old elderly when I’m 72.
Well. Regardless, they are elderly and I see no reason for dragging them across
the country to be here” (page 2, line 20 of Reporter’s Transcript, Appendix 9) The Judge also told petitioner to shush (page 2, line 11 of Reporter’s
Transcript, Appendix 9) thereby preventing petitioner from making a full and
fair argument at the hearing and in compliance with the Constitutional right
of Due Process.

There was an affirmative showing of a miscarriage of justice and overtly
expressed age related bias. Judge Green should have recused himself, he
erred in not doing so and petitioner suffered prejudice from that error and
was deprived of the opportunity to make full and fair arguments before an
impartial hearing. Impartiality and the right to a fair hearing are the
foundation of our judicial system and the court should have addressed the
issue of the Judge’s impartiality or lack thereof.

IV. PROCEDURAL DUE PROCESS:
On 05/29/2020 Appellant’s brief (Appendix 11) was filed and to support it’s
arguments contained citations to relevant laws, rules and cases but was

16

deemed defective because the table of contents did not list citations to the
clerk’s record as per court requirements. The docket sheet noted that the
brief did not comply to citations to the clerk’s record so permission to file was
needed (Appendix 8). Permission was granted on 06/18/20 but then the court
later used the defect as an excuse not to fully address petitioner’s arguments.
On the third paragraph, page 5 of the remittitur (Appendix 2), the court
states that:
“in addition, parties must provide citations to the appellate record
directing the court to the supporting evidence for each factual assertion
contained in the party’s brief. When an opening brief fails to make
appropriate references to the record to support points urged on appeal,
we may treat those points as waived or forfeited!’
The 2021 California Rules of Court Rule 8.204. Contents and format of briefs
states:
(a) Contents (1) Each brief must:
(B) State each point under a separate heading or subheading
summarizing the point, and support each point by argument and.
if possible, by citation of authority.
(e) Noncomplying briefs
If a brief does not comply with this rule:
(1) The reviewing court clerk may decline to file it, but must mark it
"received but not filed" and return it to the party; or (2) If the brief is

17

filed, the reviewing court may, on its own or a party's motion, with or
withoutnotice:'
(A) Order the brief returned for corrections and re-filing within a
specified time;
(B) Strike the brief with leave to file a new brief within a specified
time; or
(C) Disregard the noncompliance.
The language of 8.204 suggests the inclusion of citations is not mandatory as
the court of appeals ruled but rather only required if possible. Furthermore
although not listed in the table of contents, appellant referred to and cited
many cases, rules and laws to support the arguments in his brief and if
procedural due process is to be adhered to, then those arguments should not
be ignored due to a previously overlooked technicality.

V. ONLY ONE TIMELY. PEREMPTORY CHALLENGE IS ALLOWED
As argued on page 15 of the Appeal (Appendix 11). The case was assigned to
the Honorable Judge Fujie on May 24, 2019.

Under the rules of 170.6 challenges, the challenge must be made within 15
days after appellee’s first appearance which occurred on July 8, 2019 with the

18

filing of the notice of removal. This resulted in a July 23, 2019 deadline to
fileT
On July 9, 2019 the notice of removal was rejected.

On July 15, 2019 the case was remanded back to Superior Court Jurisdiction.
(Appendix 7)

On July 16, 2019 the first peremptory challenge was made but denied on July
19, 2019 because the court claimed it had not received the case back from
federal court and lacked jurisdiction.

On July 26, 2019, 3 days past the deadline, the second peremptory challenge
was filed and granted.

On July 30, 2019 the Honorable Judge Fujie issued a Minute Order
(Appendix 6) stating that the challenge was timely filed and accepted. The
case was assigned to Judge Terry Green for all future proceedings.

The rules pertaining to 170.6 peremptory challenges were apparently not
followed. The Court of Appeal noted on the second paragraph of page 4 of
their remittitur (Appendix 2) that Judge Fujie had stated the challenge “was
timely filed, in proper format, and is accepted.” On page 15 of his appeal

19

(Appendix 11), the arguments regarding peremptory challenges were first
made and discuss the relevant rules regarding 17076 challenges including
deadlines and the limiting to one challenge only . The Court of Appeals failed
to address why Judge Fujie’s assertion that the challenge was timely was
correct or in compliance with the rules governing 170.6 challenges.

VI. DUE PROCESS
This issue of Due Process was first raised in the Court of Appeals brief (page
36, 4th paragraph, Appendix 11) but the court decided not to address it. As it
is a Constitutional Right, petitioner believes it should have been addressed:
Due process, a course of legal proceedings according to rules and principles
that have been established in a system of jurisprudence for the enforcement
and protection of private rights. Due process is basically a legal requirement
that no citizen be deprived of their legal rights without proper application of
the law. Due process is the legal requirement that requires the state to
respect all the legal rights owed to a person.

Civil procedural due process
Procedural due process is essentially based on the concept of "fundamental
fairness". For example, in 1934, the United States Supreme Court held that
due process is violated "if a practice or rule offends some principle of justice
so rooted in the traditions and conscience of our people as to be ranked as

20

fundamental". As construed by the courts, it includes an individual's right to
beadequately notifie ddf charges or proceedings, theopportunitvtobeiieard
at these proceedings, and that the person or panel making the final decision
over the proceedings be impartial in regards to the matter before them.
To put it more simply, procedural due process mandates that a litigant is
entitled to adequate notice, a hearing, and a neutral judge. The requirement
of a neutral judge has introduced a constitutional dimension to the question
of whether a judge should recuse himself or herself from a case. Specifically,
the Supreme Court has ruled that in certain circumstances, the Due Process
Clause of the Fourteenth Amendment requires a judge to recuse himself on
account of a potential or actual conflict of interest.
Due Process is found in both the 5th and the 14th Amendments to the United
States Constitution. The Fifth Amendment also protects free speech and the
right to petition the government. Being told to shush by a Judge that overtly
expressed his age related bias and lack of impartiality, and who should have
never been appointed in the first place because the second 170.6 challenge
was apparently late, is certainly not indicative of neutrality or impartiality. A
judge is obliged to disqualify him or herself in a case where he or she is
biased and to hear all cases where he or she is not biased. Where there is
doubt, a judge should disqualify themself.

21

The Court of Appeals decided not to address the issues of due process and the
"Judge's impartiality or lacFthereof even though this was one'df the'most
important issues and is directly related to petitioner not having been allowed
to make full and fair arguments in the Superior Court over any of the
questions raised. Furthermore, it seems impossible for procedural due
process to be upheld when the Court of Appeals allows an opening brief to be
filed despite it's known defect and then later uses the same previously
overlooked defect as an excuse not to address petitioner’s arguments.

CONCLUSION
The initial complaint was received on May, 24, 2019 via U.S. Priority Mail,
and this date as per U.S. Code §1446 triggered the 30 day deadline for the
Notice of Removal, which therefore should have been filed by June 23, 2019 ,
but was late because it was not filed until July 8, 2019. As per §1446 a
Default occurred because no other conforming responses were received until
08/08/2019 which was past the deadline.

Even if it had been timely, prior to filing the motion to quash, the
respondent’s made general appearances including an opposition to default
and a declaration that should have rendered the motion to quash moot.

22

Judge Green overtly expressed his age related bias in Superior Court and
should'have recused hlmself and'byliot doing'so'deprived petitioner of due'
process and a fair and impartial hearing where his arguments could be
considered.

The Court of Appeals erred and procedural due process was violated. The
court gave the clerk permission to accept the brief, even though it lacked
citations, and then the court used the lack of citations as an excuse for not
fully addressing the brief and failing to even address some of the arguments
in their entirety including Judge Green’s impartiality and due process.

Neither the Superior Court nor the Court of Appeals fully addressed
petitioner’s arguments regarding the deadlines for filing notice of removal,
the definition of general appearances, the Judge’s impartiality and due
process.

The overtly stated age related bias expressed by Judge Green confirms
beyond doubt that the Judge lacked impartiality and should have recused
himself. By not doing so he deprived petitioner the right of due process and to
have a fair and impartial hearing where the issues could be justly argued.
The Court of Appeals erred in not addressing petitioner’s arguments due to
the omission of citations.

23

CONCISE ARGUMENT FOR ALLOWANCE OF THE WRIT
The Petition raises questions that include the deadline for filing a notice
of removal and whether the language of 28 U.S.C. Code 1446 applies,
what constitutes a general appearance, what constitutes a Judge's
impartiality or lack thereof, whether the second peremptory challenge
should have been allowed and whether petitioner received due process.
This case has merit and should be reviewed because there have been
decisions that conflict with the Court of Appeal, Circuit Court and even
the United States Supreme Court over at least some of the questions
presented and at least some of the questions raised are very important
and recurring. This petition provides an ideal vehicle through which to
resolve the questions presented. The petition for writ of certiorari has
merit and should be granted.
Respectfully submitted,

Marcus Silver

24

